WAIVER

SUPREME COURT OF THE UNITED STATES

No. |20-1348

True Harmony, et al. United States District Court for the Central
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.
© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

BIMHF LLC

Please check the appropriate box:

© Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: [Paul Malingagio Date 20280830 133707 0700"

Date: 3/31/21

(Type or print) Name | Paul Malingagio

© mw. O Ms. O mrs. O Miss
Firm SHEPPARD, MULLIN, RICHTER & HAMPTON LLP
Address 333 South Hope Street, 43rd Floor
City & State |Los Angeles, California Zip 90071-1422
Phone 213.620.1780 Email |pmalingagio@sheppardmullin.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Mr. Jeffrey Gray Thomas, Attorney: jgthomas128@gmail.com
cc: |Mr. Hugh John Gibson: hughjohngibson@gmail.com
USDC, Santa Ana: cacd_appealfee@cacd.uscourts.gov
Rosario Perry, Attorney: rosario@oceanlaw.com, steven@oceanlaw.com
